Audit of USAID’s Human Capital Strategy
Audit Report Number 9-000-05-003-P
January 11, 2005




                   Washington, D.C.
January 11, 2005

MEMORANDUM
FOR:           M/HR/OD, David E. Eckerson

FROM:          IG/A/PA, Nathan S. Lokos /s/

SUBJECT:       Audit of USAID’s Human Capital Strategy
               (Report No. 9-000-05-003-P)

This memorandum transmits our final report on the subject audit. In finalizing the
report, we considered your comments on our draft report and have included your
response as Appendix II.

This report does not include any recommendations.

I appreciate the cooperation and courtesy extended to my staff during the audit.
(This page intentionally left blank.)
Table of   Summary of Results............................................................................................. 5
Contents
           Background .......................................................................................................... 5

           Audit Objective.................................................................................................... 6

           Audit Findings ..................................................................................................... 6

                     Does USAID's Human Capital Strategy incorporate
                     select best practices?..................................................................................6

           Evaluation of Management Comments………………………………...…........11

           Appendix I - Scope and Methodology.................................................................13

           Appendix II - Management Comments…………………………………….......15




                                                                                                                                     3
(This page intentionally left blank.)




                                        4
Summary of   In August 2004, in response to the President’s Management Agenda (PMA)
Results      initiative on human capital, USAID issued its Human Capital Strategy Plan
             (HCS) for FY 2004-2008. This plan addresses both USAID’s particular needs
             and the PMA requirements.

             The Office of Inspector General conducted this audit to determine whether
             USAID’s HCS incorporates select best practices. We concluded that USAID’s
             HCS does incorporate select best practices (page 6.)

             USAID management agreed with our finding. Their response is included in its
             entirety in Appendix II (page 15.)


Background   Since its inception in 1961, USAID has experienced two large reductions in force.
             The first occurred towards the end of the Vietnam War. The second occurred in
             the aftermath of the Cold War; with a government-wide move toward reducing
             the federal workforce, USAID’s direct-hire workforce was reduced by 37
             percent.1

             USAID responded to the initial decline in its personnel by fundamentally
             changing the way it does business. USAID gradually shifted from being an
             agency that directly implements foreign aid programs to one that monitors grants
             and manages contractors. When the Agency was founded in 1961, it hired and
             deployed people to provide technical assistance directly. By 1980, USAID’s staff
             had shrunk considerably, and the Agency began to shift towards managing
             assistance through intermediaries under grants and contracts in order to meet its
             program objectives.      USAID also changed its human capital structure
             qualitatively because it now needed people with procurement and contract
             management skills instead of agricultural specialists, nutritionists and other
             experts in basic needs development.

             In the 1990s, the government-wide move toward reducing the Federal workforce
             led to declining direct hire-staff levels at USAID. This decade of downsizing
             generated a host of human capital challenges, as outlined in the USAID Human
             Capital Strategy FY 2004 – FY 2008, such as:

                     •        An aging workforce with increased retirements, leading to the loss
                              of the most experienced officers and their institutional memory.

                     •        A dearth of junior and mid-level officers to fill front-line jobs.

                     •        A lack of “surge capacity” to respond to emergencies, post-conflict
                              situations or new strategic priorities.

             1
              According to the GAO, the number of USAID’s direct-hire staff decreased by 37 percent from
             1992 through 2003 (GAO Report No. GAO-03-1171T).


                                                                                                           5
                        •      Long gaps both in field missions and Washington before
                               replacement staff arrive.

                 Similar human capital and management challenges affected the rest of the U.S.
                 government as well. The President’s Management Agenda (PMA) to improve
                 management in the Federal government addresses these challenges in its
                 Strategic Management of Human Capital initiative. This initiative is intended to
                 transform how organizations employ, deploy, develop and evaluate their
                 workforce.

                 The Federal government's Strategic Management of Human Capital Initiative is
                 being led by the Office of Personnel Management (OPM). To guide Federal
                 agencies toward achieving this initiative, OPM, the Office of Management and
                 Budget and the Government Accountability Office jointly developed and
                 established the six Human Capital Standards for Success in the Human Capital
                 Assessment and Accountability Framework (HCAAF). The six human capital
                 standards for success, which reflect select best practices in strategic management
                 of human capital, are (1) Strategic Alignment, (2) Workforce Planning and
                 Development, (3) Leadership and Knowledge Management, (4) Results-Oriented
                 Performance Culture, (5) Talent and (6) Accountability.

                 In response to the PMA’s initiative on human capital, USAID’s Business
                 Transformation Executive Committee established a Subcommittee for the
                 Strategic Management of Human Capital. The Subcommittee’s charter included
                 developing the Agency’s human capital strategy.


Audit            The audit was conducted as part of the annual plan to answer the following
Objective        question:

                 •      Does USAID’s Human Capital Strategy incorporate select best practices?

                 Appendix I contains a discussion of the audit's scope and methodology.


Audit Findings   Does USAID’s Human Capital Strategy incorporate select best practices?

                 USAID’s Human Capital (HC) Strategic plan for FY 2004-2008 does incorporate
                 select best practices.

                 We identified the select best practices as the six Human Capital Standards for
                 Success in the Human Capital Assessment and Accountability Framework
                 (HCAAF), which were jointly developed by Office of Personnel Management
                 (OPM), Office of Management and Budget and Government Accountability



                                                                                                 6
Office. Those Standards of the HCAAF were based on Fortune 500 company
experience in managing human capital and are described below.

•      Strategic Alignment - The human capital strategy is aligned with the
       mission, goals and organizational objectives of the Agency and integrated
       into the strategic plan, performance plans and budgets.
•      Workforce Planning and Development - The Agency is citizen-centered,
       de-layered and mission-focused, and leverages e-Government and
       competitive sourcing.
•      Leadership and Knowledge Management - Leaders and managers
       effectively manage people, ensure continuity of leadership and sustain a
       learning environment that drives continuous improvement in performance.
•      Results-Oriented Performance Culture - The Agency has a diverse, results-
       oriented, high-performing workforce and has a performance management
       system that effectively differentiates between high and low performance
       and links individual/team/unit performance to organizational goals and
       desired results.
•      Talent - The Agency has closed most mission-critical skills, knowledge
       and competency gaps/deficiencies, and has made meaningful progress
       towards closing all of them.
•      Accountability – The Agency’s human capital decisions are guided by a
       data-driven, results-oriented accountability system.
The HCAAF, which incorporates the six Human Capital Standards for Success,
provides consolidated guidance and integration so that all those involved in
developing human capital strategies can understand what is to be done, how it can
be done, and how to gauge progress and results.

The HCAAF includes a hierarchy which effectively forms a pyramid. At the top
of this hierarchy are the six Human Capital Standards for Success. The second
level of the hierarchy is composed of “critical success factors”, and each of the
Human Capital Standards for Success have several critical success factors which
are considered necessary for achieving that Standard for Success. The third level
of the hierarchy includes diagnostic questions and—for each critical success
factor—there are several diagnostic questions that help determine whether the
related critical success factor has been achieved. The fourth level of the hierarchy
includes “elements of yes” for each diagnostic question. These “elements of yes”
provide guidance on how to determine whether a diagnostic question may be
answered “yes”. Finally, the HCAAF also includes suggested performance
indicators for each diagnostic question, which can be used to track progress
toward achieving a positive answer for that question. Agencies that address the
critical success factors are most likely to meet those Standards for Success.




                                                                                  7
Accordingly, in determining whether USAID’s HC Strategic Plan incorporated
the Human Capital Standards for Success, we identified those standards in the
plan and then confirmed that the plan also addressed the HCAAF’s critical
success factors. For example, one of the critical success factors for the Human
Capital Standard for Success on Strategic Alignment requires the Agency to have
a system in place to continually assess and improve human capital planning and
investment and its impact on mission accomplishment. Following are some of the
ways USAID addresses this critical success factor:

   •   In its HC Strategic Plan, 2004-2008, USAID presents both long-term goals
       and near-term activities to revitalize the Agency and rebuild the quantity
       and quality of human and intellectual capital. To achieve its long-term
       goals, USAID plans, over the next five years, to pursue the following five
       strategic objectives (SO), the implementation of which will be led by five
       senior managers in the Office of Human Resources (M/HR):

          o Achieving a high-performing work force

          o Strategically aligning staff with Agency priorities

          o Establishing a more flexible workforce

          o Creating a more diverse workforce

          o Increasing USAID’s M/HR capacity to support the Agency’s
            mission and to implement the Agency’s HC Strategic Plan

       Some of the activities USAID is developing and/or has developed to
       accomplish these SOs include:

          o a template for the allocation of USAID’s overseas USDH staff;

          o a business model to better align Agency operations with U.S.
            foreign policy, development, and humanitarian relief objectives;
            and

          o an integrated workforce planning capability that can analyze key
            competencies, identify skill gaps, and provide managers with
            necessary information for recruitment, training, and deployment of
            staff.

       The most important near-term activities for USAID include filling vacant
       Foreign Service (FS) positions, implementing the overseas staffing




                                                                               8
        template, determining the proper staffing to perform USAID’s work
        (“rightsizing”), and creating supported ceilings or training positions.2

        •    USAID plans to emphasize a number of initiatives that promote human
             capital analysis, planning, investment, management, and alignment to
             achieve strategic goals and objectives. Some of the initiatives are:

                 o Filling the most critical existing skill and staffing gaps. Some
                   of the Agency’s specific actions to fill existing skill and
                   staffing gaps include establishing hiring targets and recruiting
                   staff, using existing authorities, establishing training positions
                   for new entrants, and improving the supervisor-to-staff ratio.
                   USAID has undertaken the recruitment of 135 career and non-
                   career FS and General Service (GS) positions in FY 2004. It
                   has also proposed a Development Readiness Initiative that
                   parallels, to some extent, the State Department’s Diplomatic
                   Readiness Initiative. In addition, the Agency plans to use
                   existing hiring and assignment mechanisms, including
                   mandated assignments, recall appointments and additional GS
                   excursions and conversions.

                      Once on board, USAID expects that new entrants will receive
                      training and mentoring for at least two years before graduating
                      from junior officer status and taking over full responsibilities
                      on their own. Furthermore, the Agency plans to identify
                      mechanisms to achieve a new supervisor-to-staff ratio of 1:7,
                      thereby removing layers and put more people on the Agency’s
                      front lines.

                 o Establishing a surge capacity to meet new program
                   requirements and respond to emergencies. The Agency plans
                   to establish up to 100 second positions for junior Foreign
                   Service Officers (FSOs) to serve overseas in training under
                   seasoned FSOs. It will also create 45 positions for interns to
                   understudy senior civil servants in critical technical and
                   management positions who are likely to retire and create
                   succession problems.       Finally, USAID will also share
                   development expertise and leadership with other U.S. foreign
                   affairs agencies and international organizations, including the
                   Millennium Challenge Corporation, by allowing for the detail
                   of up to 40 officers.

                 o Undertaking further workforce planning that will allow the
                   Agency to determine the starting point for further “right-

2
 The intent would be to create a training and reassignment buffer or “float” to cover positions
during vacancy periods between assignments and/or extended training (e.g., language training).


                                                                                                  9
                   sizing” analysis of the whole Agency. While USAID knows
                   which employees are currently on board and where they are
                   located, further workforce planning capacity is required. The
                   Agency is now undertaking comprehensive workforce planning
                   through several separate but related analyses. Some of these
                   actions include identifying key competencies and mission-
                   critical skill gaps, assessing current workforce competency
                   requirements, and conducting annual updates of the overseas
                   workforce template.

USAID’s HC Strategic Plan also addresses the remaining critical success factors
related to the Strategic Alignment Human Capital Standard for Success.

Similarly, one of the critical success factors on the Leadership and Knowledge
Management Standard for Success requires that Agency leaders establish a clear
vision for change and make the commitments necessary to achieve results. Some
of the ways USAID addresses this critical success factor are:

•   Taking visible actions to support new ways of working. USAID has
    commenced an initiative called “Knowledge for Development” to (a)
    synthesize knowledge sharing and resources and (b) lay a strong foundation
    on which to build a cross-cutting USAID-wide knowledge for development
    capability.

•   Holding people accountable for performance results and meeting their
    commitments to the change process. USAID plans to develop transparent
    incentives, assignment, training, and career development systems at all levels.
    Moreover, USAID’s leadership will use a consistent set of incentives, rewards
    and motivations for higher levels of performance, as well as legitimate and
    credible sanctions for poor performance.

•   Having Agency leaders establish a clear vision for change and make the
    commitments necessary to achieve results. The Performance Management
    Working Group has examined current standards for promotion into the Senior
    FS and developed proposals to reform the precepts for promotion into and
    within senior ranks. The working groups preliminary results have indicated
    that the most important criteria are articulating a vision for an operating unit;
    respect for staff and diversity, integrity, courage, and devotion to duty;
    concern for the wellbeing of others; teaching and mentoring; team building;
    and “knowing the ropes.”

The other critical success factors related to this Human Capital Standard for
Success have been addressed, as well as the critical success factors related to the
other four Human Capital Standards for Success.




                                                                                  10
                In our opinion, by addressing OPM’s Human Capital Standards for Success and
                the related critical success factors in its Human Capital Strategic Plan, USAID has
                incorporated the select best practices in its Human Capital Strategy.



Evaluation of   USAID management accepted our report in its entirety.
Management
Comments




                                                                                                11
(This page intentionally left blank.)




                                        12
                                                                                      Appendix I

Scope and     Scope
Methodology
              The Office of Inspector General conducted this audit in accordance with generally
              accepted U.S. government auditing standards. The audit fieldwork was
              performed between January 2004 and August 2004 in Washington, D.C. This
              audit was designed to answer the following question:

                 •    Does USAID’s Human Capital (HC) Strategy incorporate select best
                      practices?

              The audit reviewed internal controls relevant to the audit objective, such as
              minutes from the Business Transformation Executive Committee’s (BTEC)
              subcommittee on human capital meetings, BTEC bulletins and other BTEC
              documents on human capital as well as the Human Capital Assessment and
              Accountability Framework (HCAAF).

              Methodology

              In planning and performing our audit work related to the objective, we reviewed
              USAID’s Provisional Final Draft Human Capital Strategy as well as the final
              report to determine if it incorporated the suggested performance indicators,
              Elements of YES, and the critical success factors for all six human capital
              standards recommended in the Human Capital Assessment and Accountability
              Framework (HCAAF). (The HCAAF was developed jointly by Government
              Accountability Office (GAO), Office of Management and Budget and OPM to
              evaluate each Federal agency’s progress towards meeting the goals set by the
              President’s Management Agenda.) We also verified that the various working
              groups on human capital strategy had incorporated the Critical Success Factors
              and Elements of YES for all six standards for success into its development of
              human capital strategy. Since NASA received high marks on its human capital
              plan from OPM, we obtained a copy of NASA’s Strategic Human Capital Plan to
              analyze its strengths. Additionally, we reviewed previous audit reports by
              USAID/OIG related to human capital and human capital models designed by
              GAO, the World Bank, and the IMF. We did not independently verify the
              organizations’ responses regarding their specific human capital strategies, policies,
              and practices, nor did we speak with the organizations’ employees or unions
              regarding the organizations’ practices.




                                                                                               13
(This page intentionally left blank.)




                                        14
                                                                               Appendix II

Management
Comments:




             DATE:         December 28, 2004

             TO:           Nathan Lokos, IG/A/PA

             FROM:         David Eckerson, M/HR /s/

             SUBJECT:      IG Audit of USAID Human Capital Strategy


                    Thank you for the excellent work of your team on their audit of the
             USAID Human Capital Strategy. M/HR accepts their report in its entirety and we
             have no issues with the report findings.




                                                                                         15
